                     CLOSEOUT FOR M92020006

                             BACKGROUND
               -,
 The complainant                         .  .
                                  was an lnaependent film producer
 who first contacted-us on 02/04792. HI


 institution).    The original sponForing institution failed to
--ualify as an NSF grantee institution.         Subsequently,  m
                                                     lified original
                                                    was modified to

9
 show both
 com lainaztls former co-PI as t& sole PI! and then awarded as
          (the
                                                               w
                                           new sponsorship and the
                                                 the original grant
 proposal but t                                 (the grantee) . The
 complainant wa                                " on the award.
 The complainant was also involved as sole
                              (the -sal)           submitted to NSF
                                   ng institution A) .
 Over time the complainant clarified (1) allegations of intellectual
 theft and of improper NSF actions related to the change in
 sponsoring institution on the original grant proposal prior to
 NSF1s making its award to the grantee and (2) an allegation of
 improper NSF action related to NSF1s returning his second proposal
 when sponsoring institution A decided not to continue as sponsor.


                 ALLEGATIONS RELATED TO THE AWARD

 The complainant alleged that the grantee was allowed to steal his
 work, as represented in the original grant proposal and in NSF's
 award, because he was not listed as co-PI on the proposal cover
 page for NSF's award. The complainant's loss of co-PI status
 allegedly allowed the grantee to terminate his employment and
 continue his work without him. Further, NSF staff allegedly were
 involved in this intellectual theft because of their actions
 allowing the new sponsoring institution to remove the complainant
 as a co-PI on the award.

                              Page 1 of 3                     M92-06
                        CLOSEOUT FOR M92020006

    In its inquiry, OIG found that the award contained nothing which
    the complainant could identify as having been stolen from him. The
    complainant admitted, and the PI on the award claimed, that the
    ideas for the proposed film were those of (a) the PI on the award,
    the complaint's co-PI on the original grant proposal; (b) the
    author of the book upon which the film was based; and (c) the
    scientists the PI on the award consulted as the complainant's
    former co-PI in preparing the original grant proposal.         The
    complainant's contributions were to be "on-line"in the course of
    producing the film for which the award was made. OIG found no
    substance to the complainant's allegation of intellectual theft.
    Regarding the complainant's related allegation that NSF staff had
    not processed the original sponsoring institution's proposal
    properly, OIG noted that when NSF1s Division of Grants and
    Contracts (DGC) reviewed the original grant proposal, which had
    been recommended for award, DGC determined that the original
    sponsoring institution was ineligible. In order to make an award,
    DGC requires a sponsoring institution with adequate administrative
    and financial systems in place.
    The complainant alleged that the original sponsoring institution's
    proposal for the award, on which he was listed as a co-PI, was
    improperly llwithdrawnllwithout his consent when DGC refused to
    accept the original sponsoring institution as qualified. However,
    the consent of the co-PI was not required in this case. NSF1s
    Grants Policy Manual (GPM) disqualifies proposals from becoming
    awards when OMB standards for project and grant management are not
    met by the sponsoring institution. In this case, with the original
:   sponsoring institution ineligible, the consent of the co-PI is not
    material.   NSF had no choice but to unilaterally "returnw the
    original sponsoring institution's proposal because the original
    sponsoring institution failed to meet NSF1s GPM standards.
    Subsequently NSF accepted a reconstituted proposal, which was
    identical in content to that from the original sponsoring
    institution except that the new sponsoring institution listed the
    complainant under senior personnel in its budget document rather
    than having him sign the new cover page as co-PI.            NSF' s
    acceptance, the complainant alleged, made it possible for the
    grantee to terminate the complainant's employment and to continue
    NSF1s award without him.     In fact, NSF awards its grants to
    qualified institutions, not individual PIS. Further, NSF1s GPM
    recognizes that grantee institutions have the authority to remove
    or replace PIS and other senior personnel after obtaining NSF
    approval. In this case the grantee did notify NSF and NSF approved
    the complainant's removal from the award.

                                 Page 2 of 3                     M92-06
                            CLOSEOUT FOR M92020006

        OIG found no substance to the complainant's allegations of
        misconduct in science or of improper behavior by NSF staff in
        connection with handling NSF1s award.

                    ALLEGATION RELATED TO THE SECOND PROPOSAL
        The complainant also alleged that the second proposal on which he
        was sole PI, was improperly I1withdrawnl1
                                                by NSF without his consent,
        when sponsoring institution A notified NSF1s program officer that
        it would not continue as sponsoring institution for the
        complainant's second proposal.
    I   NSF1s Proposal and Award Manual (PAM) requires that a request for
        withdrawal of a proposal be signed by both the PI and the
        authorized institutional representative and that NSF send
        withdrawal confirmation letters to both the PI and the authorized
        institutional representative, neither of which occurred in the
        withdrawal of this proposal. However, the complainant had informed
        NSF by letter that he had been I1fired1l
                                               by sponsoring institution A,
        and, the PI was aware of the withdrawal from telephone
        conversations with the NSF program officer. Indeed, the program
        officer told the complainant that he could resubmit the proposal
        under sponsorship of another institution. In these highly unusual
        circumstances, it is understandable that NSF did not strictly
        follow the formal requirements of the PAM when it accepted the
        request for withdrawal from sponsoring institution A without the
-       PI'S signature and did not send a written confirmation of the
        withdrawal to the PI. Because the PI was fully contemporaneously
        informed of NSF1s actions and was in no way harmed by them, and
        because withdrawal of the proposal was inevitable following the
        severance of the professional relationship between the PI and
        sponsoring institution A, OIG believes this allegation is without
        sufficient substance to pursue further.

                                    CONCLUSION

        OIG1s inquiry found no substance to either the allegations related
        to NSF1s award or to the allegation related to the complainant's
        second proposal. We have therefore closed this case.




        cc:   Senior Scientist, Deputy AIG-Oversight, AIG-Oversight, IG

                                     Page 3 of 3                     M92-06
